Audit of USAID/Guatemala’s Distribution of P.L.
480 Title II Non-Emergency Assistance in Support
of Its Direct Food Aid Distribution Program

Audit Report No. 1-520-03-008-P

September 26, 2003




             San Salvador, El Salvador
(This page intentionally left blank)
September 26, 2003

MEMORANDUM

FOR:          USAID/Guatemala Mission Director, Glenn E. Anders

FROM:         Regional Inspector General/San Salvador, Steven H.
              Bernstein

SUBJECT:      Audit of USAID/Guatemala’s Distribution of P.L. 480
              Title II Non-Emergency Assistance in Support of Its
              Direct Food Aid Distribution Program (Report No. 1-520-
              03-008-P)

This memorandum is our report on the subject audit.

Your comments on the draft report were considered in preparing this
report. They are included for your reference in Appendix II.

This report contains two recommendations for your action.          A
management decision has been reached on both of them. The Office of
Management Planning and Innovation will make a determination of final
action after the recommendations have been completely implemented.

Once again, thank you for the cooperation and courtesy extended to my
staff during the audit.




                                                                        1
(This page intentionally left blank)




                                       2
Table of   Summary of Results                                                5
Contents
           Background                                                        5

           Audit Objective                                                   6

           Audit Findings                                                    6

                  Did USAID/Guatemala, through its monitoring and            6
                  oversight activities, ensure that P.L. 480 Title II
                  non-emergency assistance programmed for direct food
                  aid distribution programs was delivered to the intended
                  recipients in accordance with existing agreements?

                         Beneficiaries That Do Not Make Voluntary            7
                         Contributions Should Still Receive Food

           Management Comments and Our Evaluation                            8

           Appendix I - Scope and Methodology                                9

           Appendix II - Management Comments                                13




                                                                             3
(This page intentionally left blank)




                                       4
Summary of    As part of its fiscal year 2003 audit plan, the Regional Inspector
Results       General/San Salvador performed this audit to determine whether
              USAID/Guatemala P.L. 480 Title II non-emergency assistance programmed
              for direct food aid distribution programs was delivered to the intended
              recipients in accordance with existing agreements (page 6).

              The USAID/Guatemala P.L. 480 Title II food assistance was generally
              delivered to the intended recipients in accordance with existing
              agreements. However, we found that one cooperating sponsor required
              beneficiaries to make a payment to receive their food ration, a practice
              not allowed by regulation. We made two recommendations that should
              help USAID/Guatemala ensure that beneficiaries who do not make such
              contributions still receive the food (pages 7 to 8).

              USAID/Guatemala agreed with the report findings and recommendations
              and management decisions were made on both recommendations (page
              8).


 Background   Promoting food security through humanitarian and developmental uses of
              food assistance is the aim of the USAID/Guatemala P.L. 480 Title II
              program. The maternal/child health program involves efforts to reduce
              malnutrition and morbidity in vulnerable pregnant and lactating women,
              as well as children less than three years of age. Food-for-work activities
              use P.L. 480 resources to support infrastructure improvements such as
              roads and water systems.

              During fiscal years 2002 and 2003, direct food aid valued at an estimated
              $11.2 million was or is planned to be distributed by USAID/Guatemala
              through four cooperating sponsors: Catholic Relief Services, Asociación
              SHARE de Guatemala, Save the Children Federation, and the
              Cooperative for Assistance and Relief Everywhere (CARE). The P.L.
              480 program is primarily run by a USAID/Guatemala locally hired
              Foreign Service National who reports to a U.S. direct hire Food for Peace
              Officer.

              The audit coverage was limited to the CARE maternal/child health activity
              and the Save the Children Federation food-for-work program, since they
              had the largest estimated value of food deliveries for maternal/child health
              and food-for-work activities, respectively. The two activities covered by
              the audit received an estimated $4 million, or about 36 percent of the
              estimated $11.2 million in direct food aid received during fiscal years 2002
              and 2003. According to the cooperating sponsors, at the end of fiscal year



                                                                                        5
            2002, the CARE maternal/child health activity was providing food rations
            to 17,907 families, while as of June 2003, the Save the Children Federation
            food-for-work activity provided food rations to 1,135 participant families. 1


Audit       As part of its fiscal year 2003 audit plan, and in connection with an Office
            of Inspector General worldwide audit on the topic, the Regional Inspector
Objective   General/San Salvador performed this audit to answer the following
            question:

            •       Did USAID/Guatemala, through its monitoring and oversight
                    activities, ensure that P.L. 480 Title II non-emergency assistance
                    programmed for direct food aid distribution programs was delivered
                    to the intended recipients in accordance with existing agreements?
            See Appendix I for a more detailed audit scope and methodology.


 Audit      Did USAID/Guatemala, through its monitoring and oversight activities,
            ensure that P.L. 480 Title II non-emergency assistance programmed
 Findings
            for direct food aid distribution programs was delivered to the intended
            recipients in accordance with existing agreements?

            The Mission, through its monitoring and oversight activities, generally
            ensured that the food aid was delivered to the intended beneficiaries.
            However, one cooperating sponsor required a payment from individuals
            before they receive food, in violation of Regulation 11 of the U.S. Code of
            Federal Regulations.

            The Mission performed adequate monitoring to ensure that recipients
            generally received their food. Commodity call forwards were reviewed by
            the Mission, physical inventories (both at main warehouses and distribution
            centers) agreed with records, Guatemala City warehouses were in good
            physical condition and secure, and warehouse personnel had a good
            knowledge of required documentation. In addition, commodity receipt and
            shipment records at the central warehouses agreed with the warehouse
            inventory records. At the 12 communities, 2 regional distribution centers,
            and 2 central warehouses visited, commodity receipt and distribution
            records agreed with inventory records. Finally, personnel from the
            cooperating sponsors, a sub-recipient, and USAID were aware of their
            responsibilities under the program.

            1
              Save the Children Federation’s road and water system projects were active for only a
            few months. The number of participant families often changed, as projects were
            completed and new projects were added.




                                                                                                6
However, contrary to Regulation 11 of the U.S. Code of Federal
Regulations, one cooperating sponsor required the payment of voluntary
contributions from individuals receiving food aid under its maternal/child
health program.—As a result, beneficiaries that did not pay such a fee did
not receive their food rations.

Beneficiaries That Do Not Make Voluntary
Contributions Should Still Receive Food

The Cooperative for Assistance and Relief Everywhere (CARE), one of
USAID/Guatemala’s four P.L. 480 cooperating sponsors, required its P.L.
480 maternal/child health program participants to pay a monthly
contribution of 10 to 12 quetzals (approximately $1.26 to $1.52) in order to
receive their food rations. The Mission was unaware of this practice.

This practice of requiring contributions is contrary to Part 211 of Title 22 of
the U.S. Code of Federal Regulations, also known as USAID Regulation
11. Section 211.5 (f) states that “Commodities shall be distributed free of
charge except as provided in paragraphs (j) and (k) of this section or as
otherwise authorized by AID/W, but in no case will recipients be excluded
from receiving commodities because of inability to make a contribution to
the cooperating sponsor for any purpose.” 2 [Emphasis added].

CARE officials explained that they were aware that these contributions are
supposed to be voluntary. Nevertheless, they told us that all participants in
all regions throughout Guatemala must pay this nominal fee—without
exception—in order to offset the costs associated with the transportation of
commodities from ports to the warehouse, regional community centers and
communities. CARE stated that these expenses are substantial. Costs
include payments to shipping companies and community laborers, and
payments for supplies such as bags, oil pumps, and weighing scales.

Further, officials asserted that fees cannot be made voluntary because if one
individual in a community did not have to pay the required fee, word of this
would quickly spread throughout the community. Consequently all
program participants would demand to be exempt from paying the fee and
no money would be collected to defray expenses.

As a result of this practice, individuals who would otherwise be eligible to
receive commodities were denied food aid. Auditors observed two
instances of individuals denied food aid during field visits, but could not
2
  The exceptions in paragraphs (j) and (k) of 22 CFR 211.5 are not relevant to our audit,
as they
pertain to monetization programs and the use of monetized proceeds and program
income.




                                                                                       7
                 estimate how many individuals were affected over the course of the
                 program since records of participants refused food because they did not
                 make the voluntary contributions were not kept. Nevertheless, this practice
                 could adversely impact the program’s expected results related to improving
                 health and reducing malnutrition.




                        Photograph of Auditor Chris Marotta interviewing food aid
                        recipients in Semau, Guatemala, June 2003

                        Recommendation No. 1: We recommend that USAID/
                        Guatemala notify the Cooperative for Assistance and
                        Relief Everywhere in writing that they cannot refuse
                        food to participants that do not make voluntary
                        contributions.

                        Recommendation No. 2: We recommend that USAID/
                        Guatemala implement a monitoring system to ensure
                        that cooperating sponsors do not refuse food to
                        participants that do not make voluntary contributions.




Management       In responding to the draft report, USAID/Guatemala presented steps
                 being taken to address each recommendation. Consequently,
Comments and
                 management decisions were made on both recommendations. Mission
Our Evaluation   comments are included in their entirety in Appendix II.




                                                                                          8
                                                                                            Appendix I


Scope and     Scope
Methodology
              We audited USAID/Guatemala’s P.L. 480 Title II activities in accordance with
              generally accepted government auditing standards. We conducted the audit in
              Guatemala from June 2, 2003 through June 27, 2003 at the offices of
              USAID/Guatemala, the Cooperative for Assistance and Relief Everywhere (CARE)
              (Guatemala City and Copán offices), Save the Children Federation (Guatemala City
              office) and its sub-recipient Alianza para el Desarrolo Juvenil Comunitario
              (ADEJUC) (Santa Cruz office and Nebaj sub-office); the central warehouses of
              CARE and Save the Children Federation near Guatemala City; and 13 judgmentally
              selected communities.

              The audit covered P.L. 480 Title II activities from October 1, 2001 to June 26,
              2003. In fiscal years 2002 and 2003, direct food aid valued at an estimated $11.2
              million was or is planned to be distributed.

              The audit was not designed to include food aid that is monetized3 nor emergency
              food aid. USAID/Guatemala P.L. 480 activities consist of both maternal/child
              health and food-for-work activities. The audit coverage was limited to the
              CARE maternal/child health activity and the Save the Children Federation food-
              for-work program, since they had the largest estimated value of food deliveries
              for maternal/child health and food-for-work activities, respectively. The two
              activities covered by the audit received an estimated $4 million, or about 36
              percent of the estimated $11.2 million in direct food aid received during fiscal
              years 2002 and 2003.

              As of June 2003, the CARE maternal/child health activity had 201 distribution
              centers, and the Save the Children Federation activity had 107 completed and 13
              active food-for-work projects.

              We assessed the Mission’s risk exposure and management control effectiveness
              for ensuring that the Mission monitored food aid assistance to ensure that it
              reached the target beneficiaries.        To accomplish this, we interviewed
              USAID/Guatemala, CARE, Save the Children Federation and ADEJUC officials
              and reviewed the following management controls: 1) the Mission’s self-
              assessment of its adherence with the Federal Managers’ Financial Integrity Act of
              1982 in its October 2002 report, 2) the Mission’s review of cooperating sponsors’
              Development Activity Plans, 3) the Mission’s receipt of quarterly Commodity
              Status and Recipient reports from its cooperating sponsors, 4) the Mission’s review
              of Call Forwards, and 5) the Mission’s and cooperating sponsors’ visits to sites.
              3
               Some development food aid is monetized, or sold, on private markets, with the proceeds used by
              cooperating sponsors to fund development activities.




                                                                                                           9
                                                                                 Appendix I

We also considered prior audit findings that could affect the Guatemala P.L. 480
activities.

Methodology

To answer the audit objective, which dealt with whether the Mission, through its
monitoring, ensured that direct food aid reached the intended recipients, we
conducted interviews of USAID/Guatemala and cooperating sponsor officials,
reviewed records at USAID/Guatemala and other locations, and performed site
visits.

Specifically, we interviewed USAID/Guatemala and cooperating sponsor
officials to determine their responsibilities for controls, procedures, policies, and
regulations regarding the P.L. 480 Title II program.

To identify the flow of commodities from the port of entry to the intended
recipients, we obtained and reviewed relevant USAID/Guatemala and
cooperating sponsor design documents and progress reports. We also reviewed
official correspondence files at USAID/Guatemala, determining if losses
occurred through examination of the commodity status reports, and reviewing
supporting documentation to determine if loss and damage claims were filed and
pursued by the cooperating sponsors.

At both the CARE and Save the Children Federation central warehouses, we
reviewed a sample of commodity inventory records and traced the quantities of
both incoming and outgoing food aid. We also determined whether the food in
warehouses was well protected from the weather, rodent or insect infestation, and
theft, and whether commodities at warehouses were distributed on a first-in/first-
out basis.

We visited a judgmentally4 selected sample of six CARE community distribution
sites, two CARE regional distribution centers, and six Save the Children
Federation food-for-work projects. In addition, we visited the CARE and Save
the Children Federation central warehouses.

During site visits, we performed interviews of community members. We also
reviewed records regarding beneficiaries served, commodities received, used or
distributed, and commodities held in storage to determine their actual quantity.
We then compared these totals to the center’s records to determine if any
discrepancies existed. Finally, we inspected the community storage facilities to
determine whether they were secure and adequate to keep the commodities in
good condition. For food-for-work activities, we also observed project progress.
4
  We did not perform a statistical sample, since our audit was not designed to project any results
to the universe.



                                                                                              10
                                                                   Appendix I


Our audit objective focused on assessing the level of monitoring provided, which
is a qualitative, not quantitative, assessment. Given the nature of the audit
objective, we did not propose a materiality threshold level on our audit program.




                                                                              11
(This page intentionally left blank)




                                       12
                                                                                 Appendix II



Management                                                        UNITED STATES GOVERNMENT

Comments                                                   MEMORANDUM
        Date:          September 17, 2003

        Reply to
        Attn of:       Steven H. Bernstein
                       RIG/A/San Salvador

        From:          Glenn Anders
                       USAID/Guatemala Director

        Subject:       Audit of USAID/Guatemala Distribution PL 480 Title II Non-
                       Emergency Assistance in Support of its Direct Food Aid Distribution
                       Program Report No. 1-520-03-00X-P

        In general, we concur with the findings and recommendations of the Audit and are
        taking specific actions to implement such recommendations.

        The following are the Mission proposed actions in addressing each of the
        recommendations contained in the draft audit report:

        RECOMMENDATION 1:

        We recommend that USAID/Guatemala notify the Cooperative for Assistance and Relief
        Everywhere (CARE) in writing that they can not refuse food to participants that do not
        make voluntary contributions. Upon issuance of this letter, USAID/G-CAP will request
        closure of this recommendation.

        PROPOSED CORRECTIVE ACTION:

        USAID/G-CAP will notify CARE in writing of its responsabilities to comply with the
        requirements of Regulation 11 in regard to not refusing food to participants that do not
        make voluntary contributions. This notification will be done no later than October 20,
        2003.

        Upon submission to RIG/SS and MPI of the above letter, we will request closure of this
        recommendation.




                                                                                             13
                                                                        Appendix II



RECOMMENDATION 2:

We recommend that USAID/Guatemala implement a monitoring system to ensure that
cooperating sponsors do not refuse food to participants that do not make voluntary
contributions.

PROPOSED CORRECTIVE ACTION:

The above recommendation will be implemented through the following:

Modify our field trip questionnaire for PL 480 Title II food programs to include the
following two topics: A) adequacy of treatment by Cooperating Sponsors e.g. are
beneficiaries provided the allowed share of commodities, and if not why?, and; B) do the
records of the Cooperating Sponsors reflect commodity delivery to beneficiaries who are
not capable of paying their required contribution, if yes how many?

Upon submission to RIG/SS and MPI of the modified field questionnaire, we will
request closure of the recommendation.

We appreciate the professionalism and openness of the RIG/SS auditors during the
performance of subject task.




                                                                                     14
